<html>
<title> - CHALLENGES TO DEMOCRACY IN THE WESTERN HEMISPHERE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                      CHALLENGES TO DEMOCRACY IN 
                         THE WESTERN HEMISPHERE 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2013

                               __________

                           Serial No. 113-78

                               __________

        Printed for the use of the Committee on Foreign Affairs

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

82-761 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida                THEODORE E. DEUTCH, Florida
TREY RADEL, Florida                  ALAN GRAYSON, Florida



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Alvaro Uribe Velez, senior fellow, Bipartisan Policy Center, 
  (former President of the Republic of Colombia).................    10
Hector E. Schamis, Ph.D., adjunct professor, Center for Latin 
  American Studies, Georgetown University........................    30
Mr. Carlos Lauria, senior coordinator, Americas Program, 
  Committee to Protect Journalists...............................    37
Cynthia J. Arnson, Ph.D., director, Latin American Program, 
  Woodrow Wilson International Center for Scholars...............    44

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Albio Sires, a Representative in Congress from the 
  State of New Jersey: Prepared statement........................     7
Mr. Alvaro Uribe Velez: Prepared statement.......................    12
Hector E. Schamis, Ph.D.: Prepared statement.....................    33
Mr. Carlos Lauria: Prepared statement............................    39
Cynthia J. Arnson, Ph.D.: Prepared statement.....................    46

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57


           CHALLENGES TO DEMOCRACY IN THE WESTERN HEMISPHERE

                              ----------                              


                      TUESDAY, SEPTEMBER 10, 2013

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:03 p.m., in 
room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. This committee meeting is called to order. A 
quorum being present, the subcommittee will come to order. I 
will start by recognizing myself and the ranking member to 
present our opening statements. Without objection, the members 
of the subcommittee can submit their remarks for the record.
    I am going to actually do something a little bit unusual. I 
have got to defer to my boss on the committee, our chairman. 
And I am going to allow him to make the first opening 
statement.
    Mr. Royce. Well, thank you, Mr. Chairman. And I also, 
obviously, want to extend my appreciation for President Uribe 
of Colombia, the former President of Colombia, for his being 
with us today.
    And I again thank you, Mr. Chairman, for holding this very 
important hearing on the challenges of democracy. And I think 
it is timely, I think it is vital that we have a discussion 
about the state of democratic institutions here in our 
hemisphere. We are linked very, very closely with our neighbors 
to the north and the south, and we all benefit when democratic 
values are bolstered throughout this hemisphere because those 
values are the values that help ensure peace, they are the 
values that promote free trade, they are the values that 
guarantee shared prosperity, that really offer people upward 
mobility when they are deployed, that really offer people 
opportunity in those types of democratic environments.
    And while there are great examples of healthy democratic 
developments in Latin America, as of course in the case of 
Colombia, President Uribe, we do have a situation where we have 
seen the unraveling of democratic values in several countries 
over the last decade. And taking cues from Cuba's dictator, 
Fidel Castro, the late Venezuelan President, Hugo Chavez, laid 
the groundwork for the emergence of a populist extreme left in 
Latin America. And as a result, time-honored democratic 
principles like free and transparent elections, and freedom of 
the press, and freedom of expression, freedom of assembly, all 
of that has been under assault in Venezuela, in Ecuador, in 
Bolivia, in Nicaragua.
    I have been particularly concerned with the implementation 
of a communications law in Ecuador that serves to stifle the 
rights of freedom of press and expression. Passed this past 
June by Ecuador's National Assembly, the law creates regulatory 
bodies tasked with redistributing licenses equally among the 
private, government, and nonprofit sectors, thus dismantling 
much of the private media ownership in the country. These 
regulatory bodies will be charged with monitoring content and 
imposing sanctions, or imposing criminal penalties if they 
assess, subjectively, that published information is not 
precise, contextualized, or if an outlet neglects to cover 
issues deemed to be in the public interest.
    The passage of this law is chilling to those of us who know 
the importance of press freedom and independence from 
government for the proper functioning of a free society. The 
language of this law is open to the whims of President Correa, 
who has shown himself to be anti-press, anti-free expression. 
In fact, according to Freedom House's annual press freedom 
survey, Ecuador had the world's second largest decline in press 
freedom over the last 5 years.
    The passage of the law that offers that President the 
sweeping and subjective control of the media will also 
encourage Bolivian President Evo Morales, I suspect, or 
President Cristina Kirchner of Argentina to advance their own 
attempts at controlling dissent in the media. Through populist 
rhetoric, demonizing private ownership, these governments are 
seeking to put the executive firmly in control of media 
content. These types of laws do more than challenge democracy, 
they dismantle democratic institutions right here in the 
Western Hemisphere. And I am looking forward to hearing from 
each of the witnesses and discussing what can be done to 
discourage these types of abuses, made cynically in the name of 
democracy.
    Again, Mr. Chairman, I thank you for holding this hearing 
today.
    Mr. Salmon. Thank you, Mr. Chairman.
    I will next yield myself such time as I may consume, and 
then I will recognize our ranking member to make his opening 
statement. Without objection, the members of the subcommittee 
can submit their remarks for the record, or we can have a few 
opening statements as long as we don't go beyond a minute.
    I would like to thank my colleagues for joining me in 
convening this important hearing, where we have the opportunity 
to take a close look at the challenges to freedom and democracy 
that exist throughout the Western Hemisphere. Since the 
beginning of this Congress, we have focused our attention in 
this subcommittee on the growth and opportunity that exists 
throughout the region. I have long believed that the most 
effective way for the United States to bring freedom and 
democracy to people around the world is to promote principles 
of economic freedom, entrepreneurship, and free trade, a 
liberalized economic system where citizens are empowered to 
innovate, pursue their dreams, and decide how best to provide 
for their families. That is the best recipe for strengthening 
democratic institutions and the rule of law.
    Unfortunately, the Western Hemisphere is the home to 
several leaders intent on stifling economic growth and freedom, 
and eroding democratic institutions and values. The erosion of 
democracy in Latin America is best described as 
authoritarianism masked by progressive rhetoric that ironically 
claims loyalty to democratic values. The late Hugo Chavez of 
Venezuela, an acolyte of the Cuban dictator Fidel Castro, paved 
the way for the emergence of the populist left brand of 
authoritarianism we still see today in Venezuela, Ecuador, 
Nicaragua, Bolivia, and, regrettably, Argentina. By undermining 
institutions and the rule of law, and threatening their 
opposition and the press, these leftist leaders have 
consolidated power and marginalized the opposition. Media laws 
in Ecuador, Venezuela, Argentina have blatantly stifled the 
basic democratic right to free press and expression. When a 
communications law that gives the government the power to 
regulate media content was passed this summer in Ecuador's 
National Assembly, President Correa declared that this 
encroachment on the right to free expression democratizes 
access to the news media. President Correa, like President 
Kirchner of Argentina and other populist leftist leaders in 
Latin America, have attempted to shield their very undemocratic 
power grabs by labeling them democratic.
    This shameless populist doublespeak has done much to 
undermine the intrinsic value democratic institutions have had 
in protecting the rights of individual citizens. These same 
leaders have further used populistic, nationalistic rhetoric to 
justify the squandering of vast economic resources, stifling 
free enterprise and free trade, to the detriment of their 
people. Venezuela's late President Hugo Chavez nationalized 
major segments of industry, from oil to agriculture, as part of 
his socialist agenda, and that included an overt hostility to 
foreign investment. The result has been flagging production, 
record high inflation rates, and scarcity, evidenced still 
today under his dubiously elected successor, fellow populist 
leftist Nicolas Maduro.
    Democracies are almost always some form of market economy, 
and they cannot function without the rule of law. Yet the rule 
of law is literally under siege in many South American 
countries. In 2011, Argentina's President Cristina Kirchner 
announced the nationalization of the oil company YPF, 
expropriating 51 percent of the shares owned by the Spanish 
company Repsol. Her populist rhetoric declared the takeover as 
a victory for Argentina's energy sovereignty, but the reality 
has brought disappointment as Argentina is now a net importer 
of energy for the first time since 1984.
    Argentina has been plagued by high inflation, which even 
questionable government figures are forced to acknowledge. 
Meanwhile, Argentina has been a generally inhospitable 
environment for the foreign investment needed to realize its 
true economic potential. For instance, the government 
consistently refuses to honor awards issued by the World Bank's 
International Center for the Settlement of Investment Disputes. 
Instead, President Kirchner has focused agenda on growing the 
public sector in an effort to further consolidate her own 
power. She has led the passage of media and judicial laws that 
represent an assault on democratic values, while contemplating 
reform of the Argentinian Constitution in order to give her 
another term as President. A nation so rich in natural 
resources and human capital is being strangled by authoritarian 
populism that Kirchner has admired in Hugo Chavez.
    As I said at the outset, a commitment to the rule of law, 
coupled with free trade and economic liberty, will lead to 
stronger and more vibrant democracies. We should all be 
encouraged by the exciting free trade bloc known as the Pacific 
Alliance, ongoing negotiations for the Trans-Pacific 
Partnership, as well as the prospect that energy reforms in 
Mexico could bring about greater North American energy 
independence and security. The Western Hemisphere is 
commercially and culturally vibrant, and the United States 
should do more to encourage the opening of markets and 
opportunity to those nations currently strangled by populism. 
This will do much to empower citizens, make them less dependent 
on government, thereby making governments less powerful and 
less authoritarian.
    I am so pleased that former Colombian President Alvaro 
Uribe is here to testify on our first panel.
    Mr. President, I consider you to be one of the foremost 
leaders in the entire world of our last century. I know that 
the great strides that have been made in Colombia have been a 
direct result of your leadership and your guts and your 
willingness to stand up and lead. The United States has done a 
lot of things to try to help that happen, but it would have 
never happened, never, without your great leadership.
    As President of Colombia, you tackled a serious threat at 
the hands of narcoterrorists, while bringing security to the 
people of Colombia. You worked to bring greater prosperity to 
your country, including with the signing of a free trade 
agreement with the United States. This subcommittee is eager to 
hear what you consider to be the major challenges to democracy 
in our region and how we can be a positive force to encourage 
the protection of democratic rights and institutions all across 
our hemisphere.
    I also want to thank the second panel of experts, Dr. 
Hector Schamis, Mr. Carlos Lauria, and Dr. Cynthia Arnson for 
being here with us to discuss the state of democracy in our 
hemisphere. I look forward to a productive and informative 
hearing, and appreciate you all taking part today. And I will 
now recognize the ranking member for his opening remarks.
    Mr. Sires. Thank you, Mr. Chairman.
    Good afternoon. Thank you to our witnesses for being here 
today, especially President Uribe, who I have known for many 
years.
    Colombia wouldn't be Colombia today if you weren't around, 
Mr. President. Thank you for being here.
    Across the world, we are witnessing the implosion of anti-
democratic regimes. And as a consequence, the lengths that some 
authoritarian leaders will go to in order to remain in power. 
As a child in Cuba, I witnessed the deterioration of democracy 
as the Castro regime began its decades-long stranglehold on the 
freedom-loving people of Cuba. Today, over 50 years later, the 
Castro brothers' dictatorship continues to act with impunity, 
restricting basic human rights, freedoms of expression, and 
economic opportunity.
    The road to democracy in the hemisphere has long been 
fraught with challenges. The lack of inclusive participation by 
all members of society in the growing economic prosperity of 
the region has made the Americas vulnerable to anti-democratic 
forces. Additionally, weak state presence and corrupt 
governance has allowed drug traffickers to act with impunity, 
while economic and fiscal insecurity has merely dampened 
sustainable progress and further encouraged immigration abroad.
    Furthermore, democratic progress has been beset by the 
inability to ensure political accountability, public goods and 
safety, and uphold the rule of law. For instance, in Mexico and 
in Central America drug-related crime and violence has set back 
democracy and public security. While in Venezuela, Bolivia, 
Ecuador, and Nicaragua, elected leaders have abused executive 
office to consolidate power, limit the rights and freedoms of 
political opponents, and dismantle institutional checks and 
balances.
    Democracy, however, has shown indications of progress. 
While 16 of the region's countries were ruled by authoritarian 
regimes in 1981, today all but Cuba are ruled by elected 
leaders. Nonetheless, elections do not make democracy, nor do 
they guarantee its depth or legitimacy. The elections of 
Venezuela's Hugo Chavez, Ecuador's Correa, Bolivia's Morales, 
and Nicaragua's Ortega are products of poor governance that 
failed to address crime and endemic corruption, weak 
institutions, and social and economic inequalities. Their 
emergence cannot be attributed to a failure of democracy, 
rather to the failure of previous leaders to advance and uphold 
democratic principles. As a result, the disenfranchised and 
democratically disillusioned citizens turned to their leaders 
to solve difficult economic and social problems through 
undemocratic and comparatively authoritarian means.
    Moreover, these leaders rationalize the need for themselves 
to stay in office in order to see the social and institutional 
reforms take hold. And they utilize the rents from the state-
owned natural resources industry to fund their projects and 
further consolidate their rule. Under Chavez's 14-years rule, 
power in the executive was accumulated as human rights eroded 
and opposition censorship and intimidation and prosecution 
escalated. Owners of media outlets that refused to play by the 
rules have been forced to sell their assets and leave the 
country for fear of reprisal.
    We have seen similar trends take hold with respect to 
freedoms of the press in Bolivia, Ecuador, and now Argentina 
with the intimidation of journalists and media critical of the 
government. Mexico, consumed by the drug-related violence of 
cartel turf wars, is considered to be the most dangerous 
country in the hemisphere for journalists, as they are murdered 
with impunity by organized crime and corrupt officials. 
Similarly troubling is the deterioration of the rule of law as 
seen with diminished judicial independence and the failure to 
prosecute high level officials deemed above the law.
    The May 2013 conviction in Guatemala of former military 
dictator Efrain Rios Montt for genocide and crimes against 
humanity was deemed a watershed moment against the acts of 
impunity. However, the overturning of the ruling just 10 days 
later questioned the state of Guatemala's rule of law and 
judicial independence. Paramilitary groups, like Peru's Shining 
Path and Colombia's FARC, have been significantly diminished. I 
am closely following the peace talk negotiations of President 
Santos with Colombia's FARC. If successful, Colombia could 
potentially free itself of a longstanding obstacle to peace and 
economic prosperity. Nevertheless, I am skeptical on the 
willingness of the FARC leadership to simply cede control and 
forego the revenues of drug and criminal activities. And 
additionally, I find the intermediary role of Cuban officials 
particularly dubious.
    I look forward to hearing from our panelists regarding 
their assessment of the hemisphere's challenges to democracy. 
Additionally, I look forward to discussing how Congress can 
work with our regional neighbors to respect and advance 
democratic principles like free, clear, and contestable 
elections, freedoms of assembly and press and human rights, and 
the rule of law. Thank you.
    [The prepared statement of Mr. Sires follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. At 4:15 we have to go vote on the floor, but I 
do want to get to our panel as quickly as possible. I would 
like to recognize one more opening statement with the 
gentlewoman from Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and 
welcome to our great friend, President Uribe. And when talking 
about the theme of today's hearing, the challenges to democracy 
in the Western Hemisphere, we need only look no further than 
Cuba, where 11 million continue to be oppressed by the brutal 
Castro regime, activists risk their lives on hunger strikes, 
dozens of brave democracy advocates face intimidation, 
harassment, and beatings by regime thugs. In Venezuela and 
Nicaragua, millions were deprived of their basic democratic 
freedoms through fraudulent elections. And the leaders continue 
to exert control over important institutions such as the 
courts, the military, and the media.
    And these efforts have been orchestrated by ALBA nations 
like Bolivia and Ecuador, who continue to attempt to undermine 
and weaken the Inter-American Commission on Human Rights. There 
have been some reports that Venezuela is pulling out today. And 
that is why I joined with Congressman Sires to introduce the 
Countering ALBA Act, which would help protect human rights and 
democratic institutions in these countries. And the bill urges 
the President to sanction those individuals who are officials 
of, or acting on behalf of, ALBA nations who are responsible 
for the commission of serious human rights against the 
citizens. And I am interested in hearing President Uribe's 
views on the talks, the peace talks taking place in a state 
sponsor of terrorism country in Cuba between FARC and Colombia.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you. I would like to get to our panel of 
one very distinguished leader in the world. We would like to 
recognize former President Uribe. He is a senior fellow now at 
the Bipartisan Policy Center. He did serve as President of 
Colombia from 2002 to 2010. During his 8 years in office, he 
was responsible for the transformation of Colombia from a 
country with limited territorial control, escalating violence, 
and considered by many to be a failed state, into one of the 
most thriving, dynamic countries in our hemisphere.
    Congratulations.
    President Uribe studied law at the University of Antioquia. 
Also, he received a certificate of special studies in 
administration and management at Harvard Extension School, and 
a certificate in negotiation and dispute resolution at Harvard 
Law School.
    Before I recognize you to provide your testimony, I am 
going to explain the lighting system there in front of you. You 
will have 5 minutes to present your oral statement. When you 
begin, the light will turn green. When you have 1 minute left, 
the light will turn yellow. And when your time is expired, the 
light will turn red, just like driving. I ask that you conclude 
your testimony once the red light comes on.
    After our witness has testified, all members will have 5 
minutes to ask questions. I urge my colleagues to stick to the 
5-minute rule to ensure that all members get the opportunity to 
ask questions.
    President Uribe.

STATEMENT OF MR. ALVARO URIBE VELEZ, SENIOR FELLOW, BIPARTISAN 
 POLICY CENTER, (FORMER PRESIDENT OF THE REPUBLIC OF COLOMBIA)

    Mr. Uribe. Thank you, Mr. Chairman, Ranking Member Sires, 
distinguished members of the committee. I am very grateful for 
this invitation. I am not an academic, I am a political 
fighter, generating controversy almost every time.
    Elections are not enough for democracy. In the region I see 
two sets of countries. One is ALBA. In my opinion, these 
countries are in a regressive path against democracy. To 
consider which country is going on a progressive democracy or 
on a regressive democracy, I have considered five parameters: 
Security, freedom, freedom of investment, social cohesion, 
independent institutions, and pluralistic people participation. 
ALBA countries, led by Venezuela, they have in oil their main 
bond.
    Security. Venezuela has passed from more than 4,000 cases 
of homicide per year to more than 21,000, in kidnapping from 63 
to more than 1,200. At the same time, the government disregards 
security [inaudible] Violence because the government promotes 
social class hatred.
    Freedom of investment. Expropriations, shortages. Venezuela 
has expropriated more than 4 million hectares and has to import 
more than 17 million tons of food. At the same time, we see 
problems for the freedom of investment in Ecuador, Bolivia, and 
Nicaragua. Ecuador enjoys good economics at this moment, has 
advanced a lot in infrastructure, subsidizes the poorest 
people, but it lacks investment confidence. Therefore, these 
policies, the good policies, seem not to be sustainable in the 
longer term.
    Bolivia has a similar situation, with lack of investment 
confidence. And in Nicaragua, for investors to prosper they 
need to be close friends of the government. These countries 
have included in their agendas social policies, but with the 
lack of investment these social policies are not sustainable.
    Independent institutions. In Venezuela, there was a coup 
d'etat against the Congress elected 2 years ago. Pluralistic 
people participation. In some of these countries members of the 
opposition are taken to trial or even to jail. The cases more 
notorious are in Venezuela and Bolivia. Restrictions to free 
media all across these countries. In Ecuador, I want to say 
that the restrictions create distrust in the business 
community.
    On the other side, progressive democracies--Mexico, 
Colombia, Chile, Peru, Brazil, Uruguay--with the exception of 
Uruguay, these democracies have some challenges. The youth 
unemployment is very high, between 17 and 23. These same 
progressive democracies have to face this challenge, the 
aspiration of the middle classes. They have to follow the 
example of Mexico, to aggregate value to the commodity-based 
economy and the free trade agreement with the United States. 
For people to legitimize the free trade agreements, people had 
to perceive that these free trade agreements are convenient for 
all these countries, not only for industrialized countries.
    And of course in Central America they have made significant 
progress in democratic values, but they, in my opinion, need 
much more help from the international community for them to 
overcome violence and the growing trade of illicit drugs. In 
Venezuela, one of the main problems is that they harbor, the 
government harbors terrorists from all over the world and 
promotes anti-Semitic speech.
    For the first time I am on time to finish my introductory 
remarks.
    Mr. Salmon. Thank you, Mr. President, for your statement.
    [The prepared statement of Mr. Uribe follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Mr. Salmon. Before I ask questions, I would like to 
recognize our Peruvian Ambassador, Harold Forsyth.
    Thank you for coming today.
    I also would like to do just a little shout-out, our summer 
intern's last day is today. Thomas Harrigan, thank you for all 
your hard work this last summer. I really appreciate you.
    Mr. President, I am concerned that in many countries 
respect for effective rule of law seems to be weakening. And in 
some cases it is the government itself that is the prime 
instigator of that shift. Do you share this concern? And if so, 
what countries, and what can be done?
    Mr. Uribe. One of the main violation of the rule of law, 
Mr. Chairman, is the gradual elimination of independent 
institutions. In Venezuela, and in some degree in Ecuador and 
Bolivia and Nicaragua, the executive branches have overtaken 
the justice administration. And they take advantage of this 
dominance of the justice administration to proceed against 
dissidents. It is a very grave violation of the rule of law.
    Mr. Salmon. Thank you. In the aftermath of the death of 
Venezuelan President Hugo Chavez, what are Venezuela's 
political prospects in terms of restoring checks and balances 
to this political system? And what has been the Maduro 
government's track record on respect for the rights of the 
minority or freedom of expression? What are the prospects of 
the December local elections that they will be conducted freely 
and fairly? And how do you characterize media freedom in 
Venezuela now that the last remaining television station 
critical of the government, Globovision, has been sold to a 
group of businessmen with links to the Venezuelan Government?
    Mr. Uribe. Some journalists have fled to foreign countries. 
Other journalists are intimidated, and they cannot openly 
express their opinions. The government has bought media and has 
promoted the purchase of media by its own friends. At the same 
time, the government has taken advantage of its influence on 
the justice administration to go after independent journalists.
    Fraud. In past elections, there were rumors of fraud. But 
in the election this year that elected President Maduro there 
was evidence of fraud, evidence of fraud. The economic 
situation is very severe because of the shortage and the 
macroeconomics have [inaudible]. For instance, Venezuela was a 
country with a public indebtedness that represented no more 
than 24 percent of the GDP. Now it represents in between 70 and 
80 percent of the GDP. Therefore, the situation is very 
complicated. The private sector is under permanent threat. The 
same case is for the freedoms.
    Mr. Salmon. In your testimony you mentioned that Chavez's 
economic policies, continued by Nicolas Maduro, have placed 
Venezuela at high economic risk and clearly undermine 
democratic governance. In your opinion, what countries in Latin 
America are implementing some of the sound policies, economic 
policies that represent democratic governance and contribute to 
economic prosperity?
    Mr. Uribe. I will mention Mexico, Costa Rica, some other 
Central American countries, Panama, Colombia, Peru, Chile, 
Uruguay. And we are very hopeful with Paraguay and of course 
Brazil. And I am very hopeful for what is known as the Pacific 
Alliance that included some of these countries. They are 
working with all the democratic values, but they face many 
challenges. One challenge is to make the reduction of poverty 
quicker. Other challenge is to provide the youth with 
opportunities because of the high level of youth unemployment. 
And at the same time, to combine the knowledge-based economy 
with the commodities-based economy.
    Mr. Salmon. Thank you, Mr. President.
    I yield back the balance of my time, and I yield 5 minutes 
for questions to the ranking member, Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. President, I would like your view, because I have a 
very different view of what is going on in Cuba in terms of the 
changes and where you see that leading the Cuban people. 
Obviously, I feel that they are just trying to soften their 
world, how can I say, the world thinks of Cuba. I would just 
like to hear from you what you think this is going to lead in 
terms of is there really a change or is it just a facade?
    Mr. Uribe. Mr. Congressman, Ranking Member, when we compare 
Cuba with China, China has gone much far in economic openness 
than Cuba. In my opinion, the economic openness of Cuba is only 
an excuse, is only for appearance, and there is no political 
openness. Therefore, in my opinion, this economic openness in 
Cuba won't be enough to satisfy the basic needs of the people 
of Cuba.
    Cuba has been a failure. First, Cuba survived because of 
the subsidy of the Soviet Union. When the Soviet Union 
collapsed, the Cuban economy dropped by 30 percent. After, Cuba 
got the Chavez government subsidy. And now Cuba has subsidized 
loans from Brazil, for instance to build the Mariel port, and 
at the same time, the growing amount of money that is 
transferred from the United States to the Cuban families. 
Therefore, I don't see enough signs for the better off of the 
people of Cuba.
    Mr. Sires. Thank you. One of the complaints that I receive 
in my office when I receive people from Central America is the 
issue of corruption. They want to invest more in the region, 
but they feel that the corruption is too risky with the 
corruption in some of these countries. Can you talk a little 
bit about corruption in the region?
    Mr. Uribe. Of course. The main remedy against corruption is 
the independent institutions and the total openness for 
people's participation. For instance, when I was President to 
assign every contract in my government it was necessary to have 
a public hearing on TV. Therefore, all the bidders had the 
opportunity to discuss their proposals. When a country 
eliminates the independence of institutions, the country is 
much more willing to have growing corruption. Therefore, 
independent institutions, eliminated gradually in some of the 
countries, are a part to increased corruption.
    Mr. Sires. Can you talk a little bit about the Merida 
Initiative? I know that is pretty much in the same mold of what 
we tried to do in Colombia. But I don't know if we have the 
kind of backing from the country that we have in Colombia. Can 
you talk a little bit about that?
    Mr. Uribe. In Mexico?
    Mr. Sires. In Mexico.
    Mr. Uribe. In my opinion, President Calderon did a great 
job, because in the absence of President Calderon's fight 
against the drug cartels Mexico was not as it is today. In 
Mexico there is optimism.
    In my opinion, President Calderon recovered the 
predominance of the institutions over the drug cartels. And 
this policy has allowed President Pena Nieto to promote the new 
structural reforms that the Mexican economy needs. But these 
structural reforms, in my opinion, are going to produce very 
good output under the condition that Mexico never forget that 
they have to fight drug cartels.
    Mr. Sires. Thank you.
    Mr. Salmon. Thank you.
    The chair now recognizes the former--actually, chairman 
emeritus of this committee, this full committee, the 
gentlewoman from Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. It is a 
delight to have President Uribe with us.
    As Congressman Sires talked about, corruption is such a 
deep problem in our hemisphere, the lack of the rule of law, 
weak institutions. All of these factors continue to plague many 
countries in Latin America, and this prevents democratic forces 
from flourishing, from growing. And we continue to see many 
leaders, more in the ALBA nations, manipulate elections, move 
away from democratic principles. And once they are in power, 
these rogue leaders change the rules of the game. They 
manipulate the legislative system, the electoral councils, the 
judicial systems in their favor to hold onto power at any cost.
    And at the same time we see countries like Colombia and 
Chile do well economically because of the stability and the 
implementation of regulations that promote trade and open 
markets. But these democratic advances, as we have seen, 
continue to be threatened by narcoterrorism, by violence, by 
the lack of political will, by corruption.
    You are a leader who can really speak on the issue of 
narcoterrorism, FARC, because the great progress that you made 
in Colombia in the struggle against this terrorist group during 
your presidency. As we know, peace talks have been underway, 
sometimes they get halted, between the Colombian Government and 
the FARC. They are being held in a very unlikely place, in 
Cuba, which is a state sponsor of terrorism. I wanted to know 
your opinion about whether Cuba, a state sponsor of terrorism, 
is a proper forum in which to have these peace talks. And do 
you believe that the FARC will dismantle its terrorist network, 
abandon their efforts on illicit activities as a result of 
these talks?
    And then also related, Nicolas Maduro remains very much in 
control in Venezuela. Do you think that his control will 
continue or do you see--there is a lot of talk about maybe 
getting rid of him, putting in another stooge who will continue 
this farce.
    And then in Ecuador, as we talked about here, the 
manipulation of this referendum to eliminate the print media by 
forcing them to go digital. And he is not the only one who has 
been threatening the press.
    And then lastly about the OAS, which has such a lack of 
leadership, which could be a real institution for democracy and 
for the rule of law. And what reforms do you think are possible 
in the OAS so that it can be living up to the principles upon 
which it was founded?
    Thank you, Mr. President.
    Mr. Uribe. Thank you, Mrs. Congresswoman.
    When I was President and my government was inaugurated, my 
predecessor, President Pastrana, had two initiatives for peace, 
one with paramilitary groups through the Catholic Church, and 
the other with the ELN through the Cuban Government. I said we 
are ready to continue these talks under the condition that 
these criminal groups make the decision to unilaterally cease 
all their criminal activities.
    And we tried to advance in Cuba with the ELN, but the ELN 
did not accept our claim. And I had the opportunity to talk to 
President Castro, and he said to me that he no longer had 
influence on FARC. And I believed in what he said to me because 
FARC is very rich and arrogant. With the incursion of FARC in 
narcotrafficking, FARC no longer needs the help of Cuba.
    Therefore, going to the case of Venezuela, I can't 
understand why from midnight to early morning Venezuela has 
passed from being the promoter, promoter of terrorist groups, 
and becoming the promoter of peace. I cannot accept this.
    And in the case of Ecuador, when the Government of Ecuador 
says that they are in need of having communitarian social 
media, they are right. But it could not be at the expenses of 
free, independent media. It could be an excuse to eliminate 
every expression of independent media.
    Going to the Organization of American States, it has been 
very weak. I cannot understand why they adopt one stand in the 
case of Honduras, one stand in the case of Paraguay, and they 
do not say anything against the coup d'etat in Venezuela 
against the new congress 2 years ago.
    And I want to conclude with this. We should not ask for 
replacing the Organization of American States. The region needs 
democratic governments in joint action to make all the region 
to comply with the Democratic Charter of the Organization of 
American States. No one could be the police in the region, but 
we need to reform and to review and to rethink what will be the 
role of the Organization of American States, because it seems 
that the Organization of American States depends on the whims 
of some dictators or quasi-dictators and are not ruled by its 
own charge.
    And finally, Mrs. Congresswoman, I am very critical of some 
of the steps in Colombia at this moment. However, I prefer to 
say what I did, what was, what were my wrongdoings. What 
Colombia needs more at the moment of the end of my terms than 
here to criticize the current government, I am a daily fighter 
in my country. Therefore, I have to keep the criticism to my 
country for my country. And I accept that.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Uribe. I understand you will accept this excuse.
    Ms. Ros-Lehtinen. I sure do. Thank you, Mr. President.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman, Ranking Member 
for convening this hearing. I would also like to extend my 
personal welcome to his excellency, the Honorable Alvaro Uribe, 
the former President of the Republic of Colombia.
    I am impressed that in less than 25 years, 16 countries in 
the Western Hemisphere have transitioned from authoritarian 
regimes to governments by elected leaders. Such a monumental 
achievement is a testament to the backbreaking work and 
tireless dedication of the Canadians and Latin Americans and 
Caribbean people. Yet I am aware and sure that our witnesses 
will instruct us even more in terms of what needs to be done.
    As our Secretary of State Kerry stated, and I quote,

        ``The Western Hemisphere is our backyard. It is of 
        vital importance to us. Too often many countries in the 
        Western Hemisphere feel that the United States does 
        not--does not give them enough attention. And sometimes 
        this is probably true. We need to be closer and we plan 
        to do it.''

And I could not agree more with Secretary Kerry's observation 
about this in all the years that I have been a member of this 
subcommittee.
    Mr. President, my question, first question is, what is the 
role, both positive and negative, has the United States played 
in the development of democracy in this region? What successes 
and failures have we contributed to?
    My second question is that, and correct me if I make this 
as an observation, that maybe one of the serious problems that 
Latin America has always been confronted with is the extreme 
social and economic inequalities existing in the societies of 
the different Latin American countries. And I believe that with 
this inequality it does affect the government institutions, 
leading to corruption, trafficking, and all these negative 
aspects of what has been discussed earlier this morning.
    One area that I am of particular interest in, would 
certainly like to ask for your comments and your insights, is 
that of all the testimonies that I have read this morning, not 
one, not one item ever mentions the fact of the plight, the 
suffering of the indigenous Indian populations that make up 
practically every one of these Latin American countries. I have 
met with delegations of the various indigenous tribes that have 
come from Latin America, and it is the same story, Your 
Excellency. They are the West's not just bottom of the barrel, 
they are below bottom of the barrel when it comes to economic, 
social conditions, educational opportunities. They are the 
worst off. Somewhat very similar to what the American Indians 
are going through right now even in our own country.
    I would just like to start with those two questions, Mr. 
President, if I could. Your response?
    Mr. Uribe. Thank you, Mr. Congressman.
    Indigenous people in our country are making significant 
progress. During the Barco administration in Colombia between 
1986 and 1990----
    Mr. Faleomavaega. By the way, I am sorry, I didn't mean to 
interrupt you. I do want to say my highest commendation for the 
achievements that you made during the time when you served as 
President. You reduced the kidnappings by 80 percent in 
Colombia, and as high as 50 percent reduction in homicides, and 
as high as 90 percent of terrorist attacks in your country 
because of your leadership and your commitment to public 
service. And I want to commend you for that.
    Mr. Uribe. Thank you. Thank you, Mr. Congressman. But we 
did not only work for security, our democratic security policy 
had other two companions: The policy to promote investment and 
the policy to advance in social cohesion. At the same time, we 
reduced poverty, we reduced unemployment. We began to improve 
income distribution.
    My country, and before my administration, since many years 
ago, had made some significant progress in dealing with the 
indigenous communities. And in my country many governments have 
worked to assign them land titles, to give them educational 
possibilities, to give their children possibilities for 
nutrition, to give them access to health services, and so on. 
But I agree with you that we need to do much more in order to 
overcome poverty and in order to eliminate these inequalities.
    But one aspect, distinguished Congressman, it is necessary 
to take hand in hand investment with social cohesion. If you 
only want to create social opportunities, and at the same time 
you are hostile against the private sector you won't have the 
necessary resources to sustain social cohesion.
    The role of the United States. I once said, and I apologize 
for this, that Latin America is the back yard. Latin America 
and the Caribbean is the front yard of these North American 
countries. And at this moment we cannot say that we need the 
United States as the police of the region. But we need a set, a 
group of democratic countries, the United States, Canada, 
Mexico, Colombia, Peru, Uruguay. Uruguay, it has a leftist 
government, but with all the respect for democratic values. It 
does not matter that they are center left or center right. What 
matters is that they are progressive democratic countries with 
the rule of law.
    We need this group of countries to review the Organization 
of American States to make that Democratic Charter be complied 
with by all the countries. I remember, and I finish with this, 
the role many democratic countries played for Chile to push out 
Pinochet, for Peru to push out Fujimori. And what is the reason 
for silence in the case of Maduro in Venezuela? I cannot 
understand. Democratic value, the rule of law should prevail 
over any ideological willingness.
    Mr. Faleomavaega. Thank you very much, Mr. President. My 
time is way over. Thank you.
    Mr. Salmon. Thank you.
    Recognize the gentleman from South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    And thank you, Mr. President, for being here today. I was 
reading your written testimony. And you point out the regional 
success stories of Chile and Uruguay. And what I was reading 
there, it says Chile represents one of the most developed 
democracies in the region, and Uruguay has demonstrated strong 
institutions, a vibrant democracy. They are key ingredients for 
economic and social progress. But I can say that Colombia is 
the epitome of what success looks like in South America.
    When we were down there, the ranking member and I, and he 
has left now, but we were down there in Cartagena for the 
Summit of the Americas, and we met with some congressmen from 
Colombia. And one thing that struck me was three things that 
they talked about. They talked about that Colombia is pursuing 
low taxation, corporate taxes and individual taxes; a debt-to-
GDP ratio of 4 percent or less; and just enough government to 
support a free market. These are American principles. This is 
what made this country great. And I see Colombia applying those 
principles.
    And then I see Chile, Uruguay, Peru even, Brazil, Mexico to 
some degree putting the principles in place that made America 
great. And you are seeing a tremendous economic and political 
progress in Latin America.
    I read also that Brazil, Mexico, Colombia, Chile, Peru, and 
Uruguay represent 70 percent of the region's population, 75 
percent of the regional GDP. That is pretty strong when you 
compare, well, when you factor in Brazil and Argentina and 
their GDP as well. So thank you for that.
    Every instance I have had to go to Colombia I have been 
impressed. And I think it falls back on your shoulders, the 
leadership that you provided that Chairman Salmon talked about 
earlier. When we were down for seeing the cooperation between 
the U.S. and Colombian military with regard to helicopters and 
the 10-year, $10 billion investment the U.S. made in 
cooperation with Colombia and the effect it has had on pushing 
back the narcotrafficking, pushing back FARC to the borders, 
that came under your leadership. So I just say thank you for 
that.
    You speak of the importance of reforming the OAS. How can 
the U.S. affect the reform, and what do you think would be most 
helpful for the U.S. as far as helping Colombia and other 
countries reform the OAS?
    Mr. Uribe. Thank you, Mr. Congressman.
    My main concern is that the Organization of American States 
needs to be much more strict on preserving the Democratic 
Charter than it has been so far. Therefore, I don't know 
exactly what are the regulations that the organization needs to 
be introduced. In my opinion, it is necessary to have political 
determination, because it seems the Organization of American 
States fears the Government of Venezuela, fears the Government 
of Ecuador. They are very strong against what happened, what 
did happen in Honduras, very strong against what happened in 
Paraguay. They have been very weak in regarding Venezuela and 
Ecuador and Bolivia.
    Therefore, much more than regulation, it is necessary to 
adopt the political determination to preserve democratic value, 
the rule of law all over the region.
    Mr. Duncan. Thank you for that. I believe you are right. 
And I believe Colombia is leading by example with individual 
freedoms, with economic prosperity. Those are the things I 
think the neighboring countries will notice. I think they do 
notice. And when you see what is going on in Bolivia and 
Venezuela, Ecuador, the best example that those folks can look 
toward is to Colombia.
    And I just in my limited time I just want to point out that 
the South Carolina National Guard has a sister states 
relationship in the State Partnership Program with the 
Colombian air helos and their army. So we are glad to watch 
from Columbia, South Carolina, to Colombia, South America, the 
progress and have that sister relationship.
    So thank you again. I enjoyed the testimony and the 
questioning today. And I yield back.
    Mr. Salmon. Thank you.
    Mr. Radel.
    Mr. Radel. Thank you, Mr. Chair.
    You know, being Members of Congress, we have a bit of a 
megaphone here, and in today's discussion we keep hearing the 
same names, the same countries over and over, and our very 
serious and legitimate concerns with those countries. But with 
that very same megaphone that we have, I would also urge the 
people of those countries to know and to understand that at the 
end of the day we all want the same things for ourselves and 
for our children: Oportunidad y libertad, opportunity and 
freedom for all.
    And let there be no question that the Honorable Presidente 
Uribe in front of us right now has led the charge in Latin 
America of being able to show and exemplify how, when we as 
countries work together, we create more opportunity in our own 
country.
    And what has happened in Colombia is nothing short of 
amazing, and that is because of your leadership, and we thank 
you for that, and we cherish the relationship that we have with 
you.
    One thing, though, that I think also right now is 
threatening parts of Latin America and the opportunity and 
freedom that we are all looking for is organized crime. I think 
that it could potentially lead to a political backlash of 
erosion of civil liberties in particular and others.
    That said, let's take a look at the violence that has 
plagued Mexico. I would ask you, could we use Colombia as an 
example of where foreign aid and cooperating when it comes to 
national security, where we can work together. But Mr. 
President I would also ask this: In the context of this, if we 
are talking about narcotraffickers, if we do the same in 
Mexico, are we simply going to end up pushing the problem 
somewhere else?
    Mr. Uribe. Thank you, Mr. Congressman. I want to express my 
gratitude to the comments that some of you have made and I want 
to remember that the United States has been very helpful to my 
country.
    And it is not a question of bilateral relations between 
Colombia and the United States, the fight against organized 
crime, terrorist groups should be a universal fact. And one of 
the problems I see in the region is the penetration of other 
terrorist groups, different than FARC, to the region through 
the Government of Venezuela. This is the case of the connection 
with Hezbollah and other terrorist groups.
    Mexico, in my opinion, has advanced a lot, but it is 
necessary that every country is ready to support Mexico with 
whatever Mexico requests, because, you know, we need to respect 
the sovereignty of every country. And at the same time, I am 
very concerned because of impunity in some countries. This is 
not the case of Mexico. It could be the case with my country, 
because impunity is the midwife of new violence. Therefore, 
peace talks should never be at the expense of justice.
    And the same time, illicit drugs. I want only to bring one 
example. The constitutional provision of my country enacted in 
the year 2009, it states that point, those points. First, 
addicts, consumers may never be taken to jail, always to 
hospital for rehabilitation. Second, there should be prevalent 
policies on prevention, on education. And third, 
narcotraffickers and distributors, the street distributors, 
from national narcotraffickers, all of them should be taken to 
jail. Don't forget, FARC is the main drug cartel all over the 
world and has all the connections with the Mexican cartels. 
Therefore, it is necessary to have a universal fight.
    You have expressed one concern: What if Mexico succeeds as 
it is going on in this country and at the same time the drug 
cartels flee from Mexico to the Central American countries? 
Therefore, it is necessary to have a universal policy against 
the drug cartels.
    Mr. Radel. With 7 seconds left, again, thank you so much 
for being here today. It is a real pleasure to have you here. 
Gracias por venir.
    Mr. Uribe. Muchas gracias.
    Mr. Salmon. Thank you so much, Mr. President. We really 
appreciate your willingness to come. It truly is an honor. And 
thank you for all the great leadership you have provided, not 
just for Colombia, but for the world.
    Mr. Uribe. Thank you, Mr. Chairman. And thank you to all of 
you distinguished members of the committee. It has been a great 
honor.
    Mr. Salmon. Thank you.
    I move that we install our next panel. And with regard to 
some of the time constraints, I am going to dispense with the 
introductions. I apologize. You deserve very flowery 
introductions, but in the interests of time, I would like to 
move quickly.
    Thank you. Again, I apologize for dispensing with 
introductions, but I would really like to get to the meat of 
the testimony. And we will probably be called to vote in about 
15 minutes, and so I want to make sure we hear from all of you 
that have waited and been patient for so long.
    So I am going to start out with Dr. Schamis.

   STATEMENT OF HECTOR E. SCHAMIS, PH.D., ADJUNCT PROFESSOR, 
    CENTER FOR LATIN AMERICAN STUDIES, GEORGETOWN UNIVERSITY

    Mr. Schamis. Thank you, Mr. Chairman. Thank you for the 
invitation. And it is a pleasure to be here sharing this panel 
with good friends, and I appreciate your concern with this 
important subject.
    I don't want to speak too long, because time is short and 
you have more important things to do, I guess, today, but I 
would reiterate something that I put in writing here, which is 
that the single most critical challenge to democracy today in 
the region, it is in my view the impermanency of constitutional 
rules.
    It has become customary for incumbent Presidents to modify 
constitutional rules with the immediate goal of getting 
themselves reelected for another term or for an indefinite 
number of terms, which generates, I would say, a whole set of 
pathologies of political life. And that has happened, as we 
discussed here, in a variety of countries and in much more 
countries that we don't remember, perhaps, but it has happened 
in the Dominican Republican and it has happened in Honduras and 
it has happened even in Brazil, even if it didn't lead to the 
perpetration of anyone in power.
    And that generates a bad example. That generates this idea 
that, well, rules are flexible and rules can be changed. And 
indeed, constitutions are somehow flexible, but occasionally, 
not all the time. And also constitutions are not there to be 
changed for the benefit of an incumbent President. That 
generates, again, a toxic political environment.
    When that happens, these constitutional tricks, these 
quasi-constitutional reelection processes, in Ecuador or in 
Venezuela or in Bolivia and so on and so forth, it generates a 
dramatic concentration of power in the executive by definition, 
and that affects also some of the fundamental principles of 
democracy, which is checks and balances and separation of 
powers.
    As a result as well, there is a heightened concentration of 
authority in the executive, which turns executive branches into 
legislating executives at the expense of congress, and rule by 
decree has become customary. That has generated a contradiction 
between the majority rule and minority rights. It has become 
quite frequent the case the majority rule is invoked to violate 
the rights of the minority. Whether those minorities are 
political parties in the minority or ethnic minorities, as the 
Congressman suggested, is irrelevant in the sense that it 
happens equally to whoever is the minority in this context in 
which majority rule is the pretext for violating those rights.
    Judiciaries have been at risk, judges have been 
intimidated, judges have been harassed, supreme courts have 
been packed, and the cases, again, we have discussed them over 
and over again.
    The most tragic consequence, in my view, of this has been 
increasing violence and particularly increasing violence to a 
particular group of people, journalists. And I am sure Carlos 
Lauria here will discuss that issue in detail, but it has 
become quite frequent.
    A range of state actions on the part of elected 
governments, that somewhere I have called new authoritarianism 
in the region, but it has become frequent for these governments 
to go from censorship, to mild censorship and intimidation, to 
harassment, to manipulation of the courts against journalists, 
all the way to assassination and rape, in the case of--there is 
documentation in which in certain countries where violence 
against journalists has been diffuse, has been prominent, the 
case in which, if those journalists have been female 
journalists, rape has also taken place, a particular form of 
violence. And, therefore, we are in a situation in which the 
mutilation of press freedom, as I call it here, is the single 
most critical deficit of democracy and political life in the 
region as a whole.
    I want to conclude with two things. One is--or three 
things, I would say. One is President Uribe said that it 
doesn't matter very much whether right or left, and I agree 
with him. It doesn't even matter whether they are more or less 
populist, which is a common word that has been pronounced here 
and is pronounced in debates in the press, in the academic and 
the political debates. It doesn't even matter that. And let me 
illustrate that with one example.
    In 2009, one of those Presidents, at times one of those 
Presidents in Latin America, at times called a populist, 
certainly a leftist, a former labor leader, President Lula of 
Brazil, in 2009 he was approaching the end of his second term 
in office. His popularity was above 80 percent. A reporter 
asked him in a press conference why wasn't he going to change 
the constitution and stay in office. His popularity was above 
80 percent at the time, his 7th year in office. And he said, 
no, because democracy is about two things: Constitutional rules 
and alternation in power.
    And here we have someone we have called leftist for sure, a 
labor leader from industrial Sao Paulo, and a populist in some 
other commentary. Well, he rejected that. So ultimately it 
doesn't matter that much how they call themselves or how we 
call them, whether it is populist, leftist or rightist or et 
cetera, et cetera.
    The second point I want to make is that a question that has 
been already asked here is, what can we do? What can we do as a 
community in the hemisphere, I would say, the OAS? I think what 
we can do is highlight and constantly point fingers to these 
bad practices, at the OAS, but at the summit. There are 
regional summits that go on and on with speeches forever, and 
the conversation goes from trade to infrastructure and 
integration, very nice things, while many of these governments 
are abusing the rules and abusing their citizens, therefore.
    And it is not that important in the context of Latin 
America today that the U.S. does it, but that the U.S. does it 
in combination with many other quite democratic countries in 
the region. The puzzle is not so much whether the U.S. is 
saying something, but why isn't Chile and Brazil and Uruguay 
saying something to their counterparts in those regional 
summits? And that is a puzzle that I legitimately present here 
as an honest puzzle, intellectual puzzle, if you want.
    The final point is there is a label by which we have 
addressed these realities of politics, which we owe to a 
commentator and author, Fareed Zakaria, which is illiberal 
democracy. Let me say that we are getting to a point in which 
in Latin America illiberalism has turned that idea of a liberal 
democracy into an oxymoron. Without liberalism, with that level 
of illiberalism, there is no democratic politics possible. 
Thank you.
    Mr. Salmon. Thank you, Dr. Schamis.
    [The prepared statement of Mr. Schamis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Mr. Lauria.
    And I would just like to ask the panelists again to watch 
the lighting system. And red means stop. So thank you very 
much.
    Mr. Lauria.

 STATEMENT OF MR. CARLOS LAURIA, SENIOR COORDINATOR, AMERICAS 
           PROGRAM, COMMITTEE TO PROTECT JOURNALISTS

    Mr. Lauria. Thank you, Mr. Chairman. I would like to 
commend you and the members of the House Subcommittee on the 
Western Hemisphere for holding this important hearing and for 
providing the Committee to Protect Journalists with the 
opportunity to testify before you.
    I am CPJ's America senior program coordinator. CPJ is an 
independent nonprofit organization dedicated to defend press 
freedom worldwide. And, Mr. Chairman, my statement today will 
summarize the issues raised in my written testimony.
    I would like to highlight the threats that journalists face 
while reporting the news and its impact on fundamental human 
rights. In different countries, broad aspects of public 
discourse are limited by the threat of violence, government 
censorship, restrictive laws, and financial pressures. The lack 
of debate on issues of public interest is creating political 
instability, reducing government accountability, and 
compromising economic development.
    With the exception of Cuba, democracy in the Americas has 
become entrenched. While many countries in the region have 
great investigative journalism, reporters and media outlets are 
still exposed to both violence and government repression, which 
are the emerging trends that illustrate the major challenges 
facing the press in the hemisphere.
    During the last 20 years, transnational criminal groups 
have extended their sway and spread a wave of lethal violence 
in Latin America. Scores of reporters have been killed or 
disappeared with impunity, as dysfunctional justice systems 
have been incapable to solve these crimes. With more than 50 
journalists killed or disappeared over the last 6 years, Mexico 
is the deadliest country for the press in the Americas and one 
of the most dangerous worldwide. Terror and censorship have 
devastated the news media, while placing Mexico's democracy at 
risk.
    Criminal organizations and impunity have also forced the 
press into silence in some Central American countries, but 
nowhere more so than in Honduras. With the highest homicide 
rate in the world, according to U.N. statistics, a climate of 
violence and widespread impunity have made this country one of 
the most dangerous in the region.
    Even as lethal violence has drastically declined in the 
last decade, as expressed by former President Uribe here in 
this panel before, Colombia continues to rank among the most 
murderous countries for journalists in the world, with 44 
journalists killed in direct reprisal for their work since 
1992. This year, unfortunately, CPJ has documented a series of 
press freedom cases that illustrate the serious risks 
journalists still face when reporting on sensitive issues.
    Besides the threat of physical violence, the subsequent 
most pressing issue for the regional media is an array of 
restrictive measures imposed by democratically elected 
governments. Showing disdain for the institutions of democracy, 
several governments are seeking to stifle dissent and control 
the flow of information.
    Venezuela provides the starkest example of the lack of 
tolerance for different views and opinions. In the last 14 
years, Venezuela has used different laws, regulatory measures, 
judicial decisions to progressively break down the private 
press. Authorities have closed dozens of broadcasters, censored 
critical coverage, and sued reporters for defamation. Venezuela 
has served as a model to other leaders in the region who are 
trying to repress dissent and control information, but perhaps 
none has learned the lesson better than President Rafael Correa 
of Ecuador, whose policies have transformed the country into 
one of the hemisphere's most restrictive nations for the press. 
Ecuador has made use of archaic criminal defamation laws to 
silence critical journalists, and the new Communications Law, 
which establishes regulation of editorial content and gives 
authority and power to censor the press, represents a severe 
below to freedom of expression.
    In the last few years, Cuba has projected an image of a 
nation opening up economically, but the government has taken no 
actions to promote freedom of expression and access to 
information.
    Finally, and being in Washington today, I must mention 
recent developments that have worsened the climate for press 
freedom in the United States. Actions taken by the U.S. 
Department of Justice in seizing journalists' phone records and 
emails, the aggressive prosecution of whistleblowers who leak 
information to the press, classified information to the press, 
and massive surveillance of communications send a chilling 
message to journalists and their sources, particularly on 
issues of national security that are vitally important to the 
public. At the same time, just as troubling, these actions in 
the United States set a terrible example to the rest of the 
world, where governments routinely justify intervention in the 
media by citing national security.
    Mr. Chairman, members of this subcommittee, thank you again 
for your invitation.
    Mr. Salmon. Thank you, Mr. Lauria.
    [The prepared statement of Mr. Lauria follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Salmon. Dr. Arnson.

STATEMENT OF CYNTHIA J. ARNSON, PH.D., DIRECTOR, LATIN AMERICAN 
   PROGRAM, WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Ms. Arnson. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for this opportunity to testify today.
    Tomorrow, September 11th, is not only the anniversary of 
the terrorist attacks against the United States, but also marks 
the 40th anniversary of the military coup in Chile. The 
commemorations that are underway in Santiago and other major 
cities throughout the country show how the reckoning with the 
legacy of those abuses, the search for justice, the search to 
end impunity continues to pose tasks for Chilean society even 
this many decades after the formal transition to democracy.
    In terms of democratic governance, I agree with my 
colleagues, there is much to celebrate since the 1960s and 
1970s and 1980s, when many countries in the region were in the 
grip of military dictatorship or civil war. But I would like to 
refer you to my testimony to summarize some of those and rather 
focus on the setbacks to representative democracy in the Andean 
region, but also broader challenges to democratic governance in 
those countries even where liberal democracy is strong.
    First, and despite the significant strides in reducing 
poverty and more limited steps in reducing inequality over the 
last decade, the region as a whole remains the most unequal 
region in the world. Social mobility has improved, millions 
have entered the middle class, but they remain highly 
vulnerable to falling back into poverty. Frustration with 
corruption, with the poor quality of services, and with the 
unequal distribution of the fruits of economic growth remains 
high, sparking protests from Chile to Brazil to Colombia, as we 
have seen in these recent weeks.
    Second, in many countries electoral democracy survives 
amidst new threats: The unprecedented increase in the rates of 
crime and violence abetted, but not entirely caused by the 
growing activities and sophistication of transnational 
organized crime. My colleague, Mr. Lauria, has pointed to the 
attacks on the media in places like Honduras and Mexico, 
including those who have reported on organized crime.
    Latin America as a whole has a homicide rate that is more 
than double the global average. It is second only to parts of 
sub-Saharan Africa, and with the notable exception of Colombia 
it is increasing in most countries, disproportionately 
affecting young men, particularly in urban areas. And as has 
been mentioned in earlier remarks, this is an especially grave 
problem in Central America as well as part of the Caribbean.
    In addition to these overall trends that affect many 
countries of the region is the growing authoritarianism of 
regimes in the Andean region and with echoes in places such as 
Argentina and Nicaragua.
    In previous testimony, my colleagues have outlined many of 
the difficulties. I will summarize, I think, some of the most 
egregious. Today's populist regimes in Latin America are 
focused on transformational or revolutionary projects that 
concentrate power in the executive and do not envision ceding 
power to political opponents. Even when leaders enjoy 
significant popular support, largely as a result of social 
programs that have been supported by the high prices of basic 
commodities, the institutions and legal frameworks that 
constrain power have been systematically eroded. Constitutional 
reforms have done away with limits on Presidential terms. There 
has been the weakening or elimination of checks and balances 
through the packing of institutions, such as judiciaries and 
electoral councils. Leaders themselves foster actively the 
polarization of society from above, and politics is lived not 
as a process of bargaining with accepted rules of the game, but 
as a full-blown confrontation between irreconcilable interests.
    Populism's authoritarian qualities are most evident and 
advanced in Venezuela. Since his victory by a razor thin margin 
in April 2013, Nicolas Maduro has struggled to establish his 
authority. The opposition has refused to recognize the 
legitimacy of his election amidst numerous credible allegations 
of fraud. The government has failed to thoroughly investigate 
reliable reports of violence against opponents during the 
electoral period in April, at the same time that it conducts 
thorough investigations of incidents in which the opposition is 
alleged to be responsible.
    The erosion of media freedoms and of political space for 
autonomous civil society, the aggressive concentration of power 
in the hands of the Presidency, the destruction of checks and 
balances, the assault on the very notion of political pluralism 
and alternation in power, and the fostering of polarization at 
all levels of society, these characteristics of contemporary 
populism constitute the new face of authoritarianism in Latin 
America.
    But they are not the only threats to democracy and 
democratic governance in the region. To conclude, efforts to 
support democracy must include policies to improve citizen 
security, combat organized crime and its corruption at all 
levels of society, and foster inclusionary growth and 
development that benefit the region's citizens more broadly.
    Thank you very much.
    Mr. Salmon. Thank you very much, Dr. Arnson.
    [The prepared statement of Ms. Arnson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. We will now turn to the questioning phase of 
our hearing. And given the time constraints that we have, I 
will limit each member, including myself, to 3 minutes.
    I just have one question, and, Dr. Schamis, I would like to 
direct it to you. While Argentina has high Freedom House 
ratings for political rights and civil liberties, the 
government of President Cristina Fernandez de Kirchner enacted 
a controversial media law regulating broadcast and print media. 
How would you characterize the current status of media freedom 
in Argentina and the government's effort to break up the media 
concentration? What is your view of recent efforts by the 
Argentine Government to provide for the election of magistrates 
to oversee the judiciary. More broadly, how would you assess 
the current state of democracy in Argentina?
    Mr. Schamis. Mr. Chairman, yes, one could say that the 
current Government of Argentina has conducted a double strategy 
to try to stay in power longer than elected for, control of the 
media, control of information in the form of legislation that, 
while it was written in simple antitrust law, was no more than 
an attempt to break down the main media organization in the 
country and take away different outlets, whether radio or 
audio-visual or print, and give it to friends. And that has 
already started to happen, and now it is up to the Supreme 
Court to decide on the constitutionality of that law.
    The second strategy of the government to stay in office was 
to have control of the so-called magistratura, which is an 
organ, an institution that appoints, nominates judges, and to 
invoke in the name of democratization of justice, make those 
appointments electable through political party lists. That law 
would have control of the nomination and appointment of judges, 
including the electoral courts, which at a time in which 
reelection, indefinite reelection was in the minds of many 
people in the government, that would have been, you know, 
extremely convenient. However, the Supreme Court in a 6-1 
ruling determined the inconstitutionality of that reform, in 
what introduced, I have to say, a breath of fresh air into 
Argentine society and politics.
    Recently there has been an election. The government didn't 
do well, and there is all of a sudden a lot less, if any, talk 
of reelection. And there is an upcoming election in October in 
which the government has gone from 54 percent in 2011 to 26 
percent just now. And much of that has to do with the, I would 
say, courageous attitude taken by the judiciary and also by 
Argentine society that has expressed in a clear and loud way 
its rejection of any attempts of perpetuity on the part of the 
government.
    And therefore we will see what happens with the ruling of 
the Supreme Court on the constitutional status of this law, but 
overall the climate in Argentina, both in terms of freedom of 
expression and independence of the courts, has improved 
dramatically from just, I would say, 6 months ago.
    Mr. Salmon. Thank you very much.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, thank you. I actually had 
100 more questions I wanted to ask our panel. But thank you so 
much for the testimony that you have given.
    Let me just ask one question and I would like to ask all 
three of you to comment on it. We have got problems of a 
permanent constitutional framework of how these governments are 
lacking and then the problem of absolutely no freedom of the 
press and what they are doing to the journalists. And then Dr. 
Arnson's observation, the fact that corrupt governments are 
also a major cause of instability that we have in Latin 
countries. I had asked earlier to President Uribe, could you 
give me, each one of you, what you consider to be the top 
priority of what we need to do in dealing with Latin America.
    Dr. Arnson.
    Ms. Arnson. I will start. In terms of supporting democratic 
governance, I think it is obvious that the United States needs 
to use its voice and prestige on behalf of democratic systems 
and on behalf of those who are struggling to preserve and 
advance the cause of democracy in the region. When I say that, 
I also note that the involvement of the United States, for 
example in supporting overtly the opposition in Venezuela or 
Bolivia or Ecuador, is not something----
    Mr. Faleomavaega. Well, what about the fact that 85----
    Ms. Arnson [continuing]. That the opposition itself is in 
favor of, and it is often the kiss of death. And so it is very, 
very complicated to find ways concretely to support, other than 
rhetorically and verbally, to support democracy and civil 
society. There are restrictions on the flow of funds to civil 
society organizations in virtually every country in the Andean 
populist region.
    Mr. Faleomavaega. What about the fact that 85 percent of 
all the small arms that come into Mexico comes from the United 
States causing one of the serious, serious problems. And I am 
sorry. We can get into that discussion, but I need to get to 
Mr. Lauria and Dr. Schamis.
    What do you consider to be the top priority of what we 
should do as a country to deal with Latin America?
    Mr. Lauria. Sure. First of all, I think that, you know, the 
issue of killings and disappearances of journalists should be 
part of, you know, the bilateral agenda of the U.S. in talks 
with Mexico and other countries like Honduras and even Brazil, 
where journalists are killed with total impunity. That is an 
important point.
    And I think that another point is, and was expressed 
before, that a group of countries of the ALBA bloc are 
aggressively attacking one of the model systems in the 
protection and promotion of human rights in the hemisphere in 
the world, which is the Inter-American System of Human Rights. 
The U.S. should work with regional countries, heavyweights like 
Mexico and Brazil, to strongly support the Inter-American human 
rights systems. Reforms like the ones proposed by the ALBA 
could really weaken the Inter-American human rights system, the 
Inter-American Commission and its special rapporteur. And this 
is a last line of defense for citizens in the Americas when 
their human rights are violated.
    Mr. Faleomavaega. Thank you.
    Thank you, Mr. Chairman. My time is up.
    Mr. Salmon. Thank you.
    Mr. Radel.
    Mr. Radel. Thank you, Mr. Chair.
    I have worked as a journalist all of my life. Started as an 
intern at CNN. I have worked in radio, print, TV. So this is 
something near and dear to my heart. I firmly believe, for the 
record, that without a free press you are not a free country in 
any way, shape, or form.
    My question, Mr. Lauria, would actually be with respect to 
Cuba. I guess it would be the Cuba question, without Mr. Sires 
or Ms. Ros-Lehtinen here today. We have seen some economic 
reforms, and I put gigantic sarcastic quotation marks around 
reforms in Cuba, but I would ask you, has there been any sort 
of reform to move toward a freer press or even freedom of 
discussion in the country of Cuba?
    Mr. Lauria. Thank you for your question. I think it is a 
very important one. Unfortunately, despite, you know, the 
opening up in the economic and political aspects, there has 
been no attempt by the Cuban Government to promote freedom of 
expression and even access to information. There is a project 
recently implemented in Cuba, a cable fiber optic project 
financed by Venezuela that was going to provide more Internet 
infrastructure. That is not available for the Cubans. The 
government has changed its policy of long-term detentions, for 
short-term detentions, but harassments, intimidation, and 
beatings of independent journalists and political dissidents 
continue to be widespread.
    Mr. Radel. And to clarify that, too, then the technology 
that they are putting into the country is simply used for 
government officials and, what, potentially tourists that show 
up if they want to have Internet access?
    Mr. Lauria. Well, it is for government officials or for, 
you know, people that have close ties with the government.
    Mr. Radel. Sure.
    Mr. Lauria. Common citizens have no access to Internet and 
have to rely on Internet cafes or hotels to get access.
    Mr. Radel. All right. To all three of you, thank you so 
much for your time today.
    I yield the rest of my time.
    Mr. Salmon. Thank you to our distinguished panel. This has 
been a very enlightening hearing today. We are proud of the job 
that most of the countries in the Western Hemisphere have done 
protecting human rights and promoting freedom and democracy, 
but we have some challenges, some bumps in the road that we are 
all going to have to work together to try to overcome. And so I 
appreciate your testimony in shedding the light on some issues 
that need to be examined and corrected, and we applaud your 
efforts. Thank you very much.
    Without any other business, this committee will now 
adjourn.
    [Whereupon, at 4:36 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                 Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
